Case: 20-60313

Document: 00515416103

Page: 1

Date Filed: 05/14/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 20-60313

A True Copy
Certified order issued May 14, 2020

In re: JIMMY WREN,
Movant.

dwlt W.

Clerk, U.S. Court of Appeals, Fifth Circuit
Motion for an Order Authorizing
the United States District Court
for the Northern District of Mississippi
to Consider a Successive 28 U.S.C. $ 2254 Application

Before SMITH, DENNIS, and DUNCAN, Circuit Judges.
PER CURIAM:
Jimmy Wren, Mississippi prisoner #66051, was convicted of capital rape
of a child under fourteen years old and was sentenced to life imprisonment. He
moves for authorization to file a second or successive 28 U.S.C. § 2254 applica­
tion in the district court. He also filed a document he termed a “notice and
motion for a stay of execution on the life sentence,” in which he seeks release
from prison during the pendency of his successive motion.
To obtain authorization, Wren must make a prima facie showing that his
successive § 2254 petition relies upon either (1) “newly discovered evidence
that, if proven and viewed in light of the evidence as a whole, would be suffi­
cient to establish by clear and convincing evidence that no reasonable fact-

At-P-l

*,

_

5N THE CIRCUIT COURT OF PANOLA COUNTY, MSSSSSS'PP!
SECOND JUDICIAL DISTRICT
STATE OF MISSISSIPPI
vs.

CAUSE NO. §5-S§-BP(2)

JIMMY WREN

jN^ysns^FN©r©=r"

{<f

Each person testifying oath Is a witness. You have the duty to determine the
believability of the witness. In performing this duty, you must consider each witness's
intelligence, the winess’s sincerity, and the witness's demeanor while testifying. You must
r ■

consider also the extent the witnesses either supported or contradicted by other evidence;
the relationship tine witness may have with either side; and how the witness might be
affected by the verdict. (You must consider any evidence of the witness's character for
truthfulness.) In vreighing a discrepancy by a witness or between witnesses, you should
consider whether it resulted from an Innocent mistake or a deliberate falsehood, and
whether it pertains to a matter o? importance or an unimportant detail.
You may reject or accept all or any part of a witness's testimony and you may reject
part end accept other parts of a witness's testimony.
After making your own judgment, you will give the testimony of each witness the
credibility, if any, as you may think it deserves.
(The weight of the evidence is not necessarily determined by the number of
witnesses testifying as to the existence or non-existence of any fact You may find that the
testimony of a sr/ialler number of witnesses as to any fact is more credible than the
testimony of a larger number of witnesses to the contrary.

t

jij

o l I!

j

I I ',

i yjjfBt.

I :

rt-,i p-wj
A M3

KC‘

FILED

Serial: 195X48
IN THE SUPREME COURT OF MISSISSIPPI
No. 2013-M-01725
JIMMY WREN
A/KJA JIMMY LEE WREN

DEC -3 2014
OFFlUfcUh I Ht CLERK

Petitioner

v.
STATE OF MISSISSIPPI

Respondent
ORDER

Now before the panel of Waller, C J., King and Coleman, JJ., comes the Application
for Leave to F ile Motion for Post-Conviction Collateral Relief in the Circuit Court ofPanola
County, Mississippi, filed by Jimmy Wren. Wren’s conviction of capital rape of a child
under- fourteen years and sentence of life imprisonment were affirmed-on direct-appeal- and
the mandate issued on July 22,1999. Since that time, Wren has filed six (6) applications for
leave to pursue post-conviction relief. The last of these was. Lester v. State, 726 So. 2d 598
(Miss. Ct. App. 1998)(reversed and remanded as to Lester only). Wren has filed five (5)
prior motions for post-conviction relief, the most recent having been dismissed on June 11,
2014, as procedurally barred. The crux of Wren’s instant application for leave centers
around his assertion that he is entitled to have his conviction reversed because the jury was
not instructed on venue. In addition to the instant application for leave being time-barred and
successive, this issue in this application is identical to that which was rejected by this Court
in his last application, and it is barred by the doctrine of resjudicata. Miss. Code Ann § 9939-21(3).

toft

On August 27,2009, following Wren’s third application for leave, Wren was warned
by Order ofthis Court that future frivolous filings may result in the imposition of appropriate
sanctions. OnMay 11,2011, this Court sanctioned Wren in the amount of$ 100.00 forfiling
his fourth application for leave, which was deemed to have been frivolous. Following his
last application for leave, the Court did not deem the application frivolous, and Wren was not
sanctioned. However, he has now sought post-conviction relief on the very issue previously
rejected by his Court in June of this year. We find the instant application for leave is
frivolous and that Wren should be sanctioned.
IT IS THEREFORE ORDERED that the Application for Leave to File Motion for
Post-Conviction Collateral Relief in the Circuit Court of Panola County, Mississippi, filed
byJimmy Wrenris dismissedas_procedurallybarred:
IT IS FURTHER ORDERED that Jimmy Wren is hereby ordered to pay a sanction
in the amount of one hundred dollars ($100.00) in addition to any outstanding balance due
on the previously Court ordered sanction. The Clerk of this Court and the Mississippi
Department of Corrections are to make all necessary accommodations for the proper receipt of the
same.
SO ORDERED, this the 3rd day of Decembei^/014.

C7

y

^_____jjbs£ie d. king, justice

2

^r-rygTSlfe

Serial: 201044
IN THE SUPREME COURT OF MISSISSIPPI
No. 2013-M-01725

FILED

JIMMY WREN
A/K/A JIMMY LEE WREN

Petitioner

SEP 10 2015
V.

OFFICE OF THE CLERK
SUPREME COURT
COURT OF APPEALS

STA TE OF MISSISSIPPI

Respondent

ORDER
Now before the panel of Waller, C.J., Chandler and Pierce, JJ., comes the
“Application for Leave to File Post-Conviction Motion [in] the Circuit Court of Panola
County, MS” filed by pro se Jimmy Wren. Also before the panel is Wren’s subsequently
filed Motion to Correct Pleadings Pursuant to Rule 27(b)(2) M.R.A.P., which is treated as
an attachment to his application for leave.
Wren’s conviction of capital rape of a child under fourteen years of age and sentence
of life imprisonment were affirmed on direct appeal, and the mandate issued on July 22,
1999. Lester v. State, 726 So. 2d 598 (Miss. Ct. App. 1998)(reversed and remanded as to
Lester only). This is Wren’s seventh applications for leave to pursue post-conviction relief.
His last application for leave was dismissed on December 3,2014, and Wren was sanctioned
in the amount of $100.00, which has not been paid.

We find that the instant application is procedurally barred by time and as a successive
writ, and it does not meet any of the exceptions thereto. Miss. Code Ann. §§ 99-39-5(2) and
99-39-27(9). Notwithstanding the procedural bars, the issues are also without merit.
IT IS THEREFORE ORDERED that the “Application for Leave to File PostConviction Motion [in] the Circuit Court ofPanola County, MS” is dismissed as procedurally
barred.
SO ORDERED, this the 9th day of September, 2015.

DAVID A. CHANDLER, JUSTICE

2

* •>

ft

Serial: 192061
IN THE SUPREME COURT OF MISSISSIPPI
No. 2013-M-01725
JIMMY WREN
A/K/A JIMMY LEE WREN

FILED

Petitioner

JUN 11 2014
v.

SUPREME COURT CLERK
Respondent

STATE OF MISSISSIPPI
ORDER

This matter is before the panel of Waller, C.J., Lamar and Pierce, JJ., on the
application for leave to seek post-conviction relief in the trial court, filed by counsel for
Jimmy Wren. Also before the panel is the motion for a show cause order.

Wren’s

conviction and sentence were affirmed by this Court. Lester v. State, 744 So. 2d 757(Miss.
1999). Wren has filed previous motions for post-conviction relief, the most recent having
been dismissed on May 11,2011, as time-barred and successive.
Having duly considered Wren’s application for leave, we find it to be successive and
untimely and Wren fails to demonstrate that it meets any exceptions to the successive writ
bar and/or the time bar. The petitioner at least must provide some basis for the validity ofthe
claim before the procedural bar will be waived. After due consideration, we find Wren has
presented no “arguable basis” for his claim! See Means v. State, 43 So. 3d 438,442 (Miss.
2010). Further, the panel finds that Wren’s motion for a show cause order should be denied.

!/.

V- s 17

»

Serial: 190847
IN THE SUPREME COURT OF MISSISSIPPI

FILED
APR 10 2014

No. 20I3-M-01725
COURT OF APPEALS

JIMMY WREN
A/K/A JIMMY LEE WREN

Petitioner

v.
STA TE OF MISSISSIPPI

Respondent
ORDER

This matter is before the undersigned Justice on the Application for Leave to Seek
Post-Conviction Reliefin the Circuit Court ofthe Second Judicial District ofPanola County
or* in the Alternative, Application for Relief from this Court, filed by counsel for Jimmy
Wren. In order to consider and rule on this matter, the Court will need to review the
following closed court file which is now housed at the Mississippi Department ofArchives
and History: Mississippi Supreme Court, Lester, Wrenn and Butler v. State, 1996-KA(CT)01072-SCT. When that review is complete, the Court will return the file to the Mississippi
Department of Archives and History.
IT IS, THEREFORE, ORDERED:
1. That the Mississippi Department of Archives and History is directed to check out
the following file, Mississippi Supreme Court, Lester, Wrenn and Buter v. State, 1996KA(CT)-01072-SCT, to the following designated court representative: P. Daniel Edwards.
When use of this record is complete, the Court will return the record to the Mississippi
Department of Archives and History.

•

♦

2. That the Mississippi Department of Archives and History and its officers and
employees shall be held harmless for complying with this order.
3. That the Clerk of this Court shall forward copies of this order to all counsel of
record and any pro se parties in this matter as well as to:
Division Director
Archives and Records Services Division
Mississippi Department of Archives and History
P. O. Box 571
Jackson, MS 39205-0571.
SO ORDERED, this the

3

day of April, 20f 1.

MICHAEL K. RANDOLPH,
PRESIDING JUSTICE

